Audit Report




OIG-07-024
Audit of the Financial Crimes Enforcement Network’s
Fiscal Year 2006 Financial Statements and Fiscal Year 2005
Balance Sheet

January 8, 2007




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220


                                                January 8, 2007
     OFFICE OF
INSPECTOR GENERAL



            MEMORANDUM FOR WILLIAM F. BAITY, ACTING DIRECTOR
                           FINANCIAL CRIMES ENFORCEMENT NETWORK

            FROM:                   Joel A. Grover
                                    Deputy Assistant Inspector General
                                       for Financial Management and Information
                                       Technology Audits

            SUBJECT:                Audit of the Financial Crimes Enforcement Network’s
                                    Fiscal Year 2006 Financial Statements and Fiscal Year 2005
                                    Balance Sheet

            I am pleased to transmit the attached audited Financial Crimes Enforcement
            Network (FinCEN) financial statements for fiscal year 2006 and balance sheet for
            fiscal year 2005. Under a contract monitored by the Office of Inspector General,
            KPMG LLP, an independent certified public accounting firm, performed an audit of
            the financial statements of FinCEN as of, and for the year ended
            September 30, 2006, and its balance sheet as of September 30, 2005. The
            contract required that the audit be performed in accordance with generally
            accepted government auditing standards; applicable provisions of Office of
            Management and Budget Bulletin No. 06-03, Audit Requirements for Federal
            Financial Statements; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report
                •   Independent Auditors’ Report on Internal Control
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles,
                •   no matters involving internal control and its operation that are considered
                    material weaknesses, and
                •   no instances of reportable noncompliance with laws and regulations tested.
KPMG LLP also issued a management letter dated November 21, 2006, discussing
other matters involving internal control over financial reporting and its operation
that were identified during the audit but were not required to be included in the
auditors’ reports.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated November 21, 2006 and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
(202) 927-5789.

Attachment
     DEPARTMENT OF THE TREASURY 

FINANCIAL CRIMES ENFORCEMENT NETWORK 


            Financial Statements 


            September 30, 2006

                              DEPARTMENT OF THE TREASURY 

                         FINANCIAL CRIMES ENFORCEMENT NETWORK 



                                       Table of Contents 




                                                                  Page

Independent Auditors’ Report                                         2

Management’s Discussion and Analysis                                10

Financial Statements and Notes                                      19
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                           Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury and
Director, Financial Crimes Enforcement Network:

We have audited the accompanying balance sheets of the U.S. Department of the Treasury – Financial
Crimes Enforcement Network (FinCEN) as of September 30, 2006 and 2005, and the related statements of
net cost, changes in net position, financing and custodial activity, and combined statement of budgetary
resources for the year ended September 30, 2006 (hereinafter referred to as “financial statements”). These
financial statements are the responsibility of FinCEN’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 06-03, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 06-03 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes consideration of internal control
over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of FinCEN’s internal control over
financial reporting. Accordingly, we express no such opinion. An audit also includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements, assessing the
accounting principles used and significant estimates made by management, as well as evaluating the
overall financial statement presentation. We believe that our audits provide a reasonable basis for our
opinion.

In our opinion, the balance sheets referred to above present fairly, in all material respects, the financial
position of the U.S. Department of the Treasury – Financial Crimes Enforcement Network as of
September 30, 2006 and 2005, and the related net costs, changes in net position, budgetary resources,
reconciliation of net costs to budgetary obligations, and custodial activity for the year ended September 30,
2006, in conformity with U.S. generally accepted accounting principles.

The information in the Management Discussion and Analysis and Required Supplementary Information
sections is not a required part of the financial statements, but is supplementary information required by
U.S. generally accepted accounting principles and OMB Circular A-136, Financial Reporting
Requirements. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we did
not audit this information and, accordingly, we express no opinion on it.




                                                                          2
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
In accordance with Government Auditing Standards, we have also issued our reports dated November 21,
2006, on our consideration of FinCEN’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 21, 2006




                                                      3

                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                           Independent Auditors’ Report on Internal Control


Inspector General, U.S. Department of the Treasury and
Director, Financial Crimes Enforcement Network:

We have audited the balance sheets of the U.S. Department of the Treasury – Financial Crimes
Enforcement Network (FinCEN) as of September 30, 2006 and 2005 and the related statements of net cost,
changes in net position, financing and custodial activity, and the combined statement of budgetary
resources for the year ended September 30, 2006 (hereinafter referred to as “financial statements”), and
have issued our report thereon dated November 21, 2006.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 06-03, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
06-03 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of FinCEN is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2006 audit, we considered FinCEN’s internal control over
financial reporting by obtaining an understanding of FinCEN’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the objectives
described in Government Auditing Standards and OMB Bulletin No. 06-03. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982. The objective of our audit was not to provide an opinion on FinCEN’s internal control over
financial reporting. Consequently, we do not provide an opinion thereon.

Our consideration of the internal control over financial reporting would not necessarily disclose all matters
in the internal control over financial reporting that might be material weaknesses under standards issued by
the American Institute of Certified Public Accountants. Material weaknesses are reportable conditions in
which the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements caused by error or fraud in amounts that would be material
in relation to the financial statements being audited may occur and not be detected within a timely period
by employees in the normal course of performing their assigned functions. Because of inherent limitations
in internal control, misstatements due to error or fraud may nevertheless occur and not be detected.
However, we noted no matters involving the internal control and its operation that we considered to be
material weaknesses as defined above. The Exhibit presents the status of prior year reportable conditions.




                                                                          4
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
INTERNAL CONTROLS OVER PERFORMANCE MEASURES

Under OMB Bulletin No. 06-03, the definition of material weaknesses is extended to other controls as
follows. Material weaknesses are reportable conditions in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that misstatements caused
by error or fraud, in amounts that would be material in relation to a performance measure or aggregation of
related performance measures, may occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions. Because of inherent limitations in internal control,
misstatements due to error or fraud may nevertheless occur and not be detected.

Our consideration of the design and operation of internal control over the existence and completeness
assertions related to key performance measures would not necessarily disclose all matters involving the
internal control and its operation related to the design and operation of the internal control over the
existence and completeness assertions related to key performance measures that might be reportable
conditions.

As required by OMB Bulletin No. 06-03 in our fiscal year 2006 audit, with respect to internal control
related to performance measures determined by management to be key and reported in the Management
Discussion and Analysis, we obtained an understanding of the design of internal controls relating to the
existence and completeness assertions and determined whether these internal controls had been placed in
operation. We limited our testing to those controls necessary to test and report on the internal control over
key performance measures in accordance with OMB Bulletin No. 06-03. However, our procedures were
not designed to provide an opinion on internal control over reported performance measures and,
accordingly, we do not provide an opinion thereon. In our fiscal year 2006 audit, we noted no matters
involving the design and operation of the internal control over the existence and completeness assertions
related to key performance measures that we considered to be material weaknesses as defined above.

We noted certain additional matters that we have reported to management of FinCEN in a separate letter
dated November 21, 2006

This report is intended solely for the information and use of FinCEN’s management, the U.S. Department
of the Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 21, 2006




                                                     5

                                                                                                                      Exhibit I

                                             U.S. Department of Treasury
                                        Financial Crimes Enforcement Network

                                         Status of Prior Years’ Recommendations

                                                     September 30, 2006


 Reported Condition                     Recommendations                                                      Status
 Improvement is needed in               We recommended that FinCEN management develop
 accounting for internal use            procedures that would allow recording of internal use software
 software and accrued liabilities:      capitalization as well as accounts payable and accrued liabilities
                                        as transactions occur and review these transactions on at least a
 •   FinCEN capitalized internal        monthly basis.
     use software only at year-end.                                                                          Corrective
     Throughout the year the costs                                                                           action taken –
     related to internal use                                                                                 no longer
     software were incorrectly                                                                               considered a
     expensed.                                                                                               reportable
                                                                                                             condition.
 •   We noted that FinCEN only
     reviews their undelivered                                                                               Corrective
     orders for payables and                                                                                 action taken –
     accrued liabilities at year-end.                                                                        no longer
     Therefore, throughout the                                                                               considered a
     year, accounts payable and                                                                              reportable
     accrued liabilities may be                                                                              condition.
     misstated.

 (FY 2005 FinCEN Annual
 Financial Statement, Report No.
 OIG-06-027)



As required by Government Auditing Standards and OMB Bulletin No. 06-03, Audit Requirements for Federal
Financial Statements, we have reviewed the status of prior years’ findings and recommendations. The above
table summarizes the prior year finding and provides our assessment of the progress that FinCEN has made in
correcting the reportable condition. We have also provided the Office of the Inspector General report number by
which the recommendations are monitored for audit follow-up.




                                                                6

                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury and
Director, Financial Crimes Enforcement Network:

We have audited the balance sheets of the U.S. Department of the Treasury – Financial Crimes
Enforcement Network (FinCEN) as of September 30, 2006 and 2005, and the related statements of net
cost, changes in net position, financing and custodial activity, and combined statement of budgetary
resources for the year ended September 30, 2006 (hereinafter referred to as “financial statements”), and
have issued our report thereon dated November 21, 2006.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 06-03, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
06-03 require that we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free of material misstatement.

The management of FinCEN is responsible for complying with laws, regulations and contracts applicable
to FinCEN. As part of obtaining reasonable assurance about whether FinCEN’s financial statements are
free of material misstatement, we performed tests of FinCEN’s compliance with certain provisions of laws,
regulations and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 06-03, including certain provisions referred to in the Federal Financial
Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations and contracts
applicable to FinCEN. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards and OMB Bulletin No. 06-03.

Under OMB Bulletin No. 06-03 and FFMIA, we are required to report whether FinCEN’s financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements.

The results of our tests of FFMIA disclosed no instances in which FinCEN’s financial management
systems did not substantially comply with the three requirements discussed in the preceding paragraph.



                                                                         7
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
This report is intended solely for the information and use of FinCEN’s management, the U.S. Department
of the Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 21, 2006




                                                  8

Management’s Discussion and Analysis
                                Department of the Treasury 

                           Financial Crimes Enforcement Network 


                              Management Discussion and Analysis 

                                     September 30, 2006 


Mission and Organizational Structure

The Financial Crimes Enforcement Network (FinCEN), a bureau within Treasury’s
Office of Terrorism and Financial Intelligence, is responsible for administering the Bank
Secrecy Act (BSA). The BSA requires financial institutions to file reports on certain
types of financial activity and to establish appropriate internal controls to guard against
money laundering, terrorist financing, and other types of illicit finance. FinCEN fulfills
its responsibility to safeguard the financial system from the abuses of financial crime
through the administration of the BSA; supporting law enforcement, intelligence, and
regulatory agencies through sharing and analysis of financial intelligence; building global
cooperation with our counterpart financial intelligence units; and networking people,
ideas, and information.

Strategic Goals and Performance Goals

FinCEN’s strategic goals directly link to the Treasury Strategic Goal: “Preserve the Integrity of
the Financial Systems” and the national priority of “Dismantling the Financial Infrastructure of
Terrorist Networks.” To improve and clarify the bureau’s strategic foundation, FinCEN
developed and released an updated Strategic Plan that revised our strategic objectives, and
developed performance measures that link directly to the strategic plan and enable FinCEN to
monitor program execution. FinCEN’s organizational structure was adjusted to reflect our
functional priorities and align with the Strategic Plan. FinCEN’s four strategic goals and related
performance goals are listed below:

1.	 Protect the financial system through effective administration of the BSA.
    •	 Develop and implement appropriate anti-money laundering regulatory policy and 

       regulations under the BSA and related authorities; 

    •	 Provide guidance to support financial institutions in establishing risk-based programs that
       comply with the BSA;
    •	 Promote uniform and effective application of, examination for, and enforcement of the
       BSA; and
    •	 Use regulatory means to support law enforcement in the investigation and prosecution of
       financial crimes.

2.	 Combat terrorism, money laundering, and other financial crime through analysis of BSA data
    and other relevant information.
    •	 Expand the production of analytic products that incorporate analysis of relevant classified
       information;
    •	 Produce policy-level assessments of terrorist financing and money laundering threats that
       fuse BSA data with all appropriate information sources;


                                              10

   •	 Adjust our support of law enforcement investigations to better reflect our increased
      capabilities to perform complex data mining and analysis; and
   •	 Apply analytical resources to support regulatory activity concerning the BSA.

3.	 Intensify international anti-money laundering collaboration through the global network of
    financial intelligence units.
    •	 Strengthen anti-terrorist financing and anti-money laundering policies and programs
        worldwide; and
    •	 Enhance international standard setting and cooperation in the areas of terrorist financing,
        money laundering and other financial crimes.

4.	 Facilitate regulatory compliance, data management, and information sharing through E-
    government.
    •	 Accelerate the secure flow of financial information from the industries subject to BSA
       requirements to the law enforcement agencies that use it to prevent, detect, and prosecute
       financial crime, including terrorist financing; and to the regulators who must assess the
       adequacy of that information as well as oversee BSA compliance; and
    •	 Enhance communications between the government and the financial industry to ensure
       expeditious notification to law enforcement of possible terrorist or other illegal activity.

Program History

Regulatory: FinCEN issues regulations, regulatory rulings, and interpretive guidance.
Additionally, FinCEN works closely with federal and state regulatory agencies that examine
financial institutions for BSA compliance to ensure consistency across regulated industries. As
appropriate, FinCEN investigates alleged violations, issues letters of caution or warning, and
seeks injunctions. When required, FinCEN imposes civil monetary penalties for egregious BSA
violations.

Analysis: FinCEN supports law enforcement agencies, intelligence agencies, and foreign
financial intelligence units (FIUs) investigating financial crimes by providing specialized and
unique analysis of BSA data along with data from law enforcement, intelligence, and
commercial sources. FinCEN’s analyses supports regulatory and other policy decisions, and are
used to develop threat assessments, industry reports, and technical guides describing financial
transaction mechanisms. Additionally, FinCEN proactively identifies individuals and networks
involved with suspicious financial activity and refers that information to appropriate law
enforcement agencies.

In the global arena, FinCEN’s activities include: supporting international initiatives to educate
other jurisdictions about the BSA regulatory regime, as well as to establish international anti-
money laundering/counter-terrorist financing regulatory standards and norms; expanding and
organizing the exchange of financial information; improving the expertise and capabilities of
personnel with anti-money laundering and counter-terrorist financing missions; and fostering
better and more secure communication among FIUs through technology.




                                              11

Data Collection and Sharing: As administrator of the BSA, FinCEN must ensure the effective
collection, management, and dissemination of the highly sensitive confidential information
collected under the Act. FinCEN provides direct access to BSA data to authorized law
enforcement, regulatory, and intelligence agencies. FinCEN will continue to integrate and
modernize the various components of the BSA data collection and sharing systems. These
efforts include upgrading the BSA E-Filing system to provide a more robust collection function,
improving the quality of BSA data by preventing the omission of critical information, validating
the information collected, and upgrading the BSA analytical tools used by FinCEN analysts.

Performance Results

FinCEN issues regulations and guidance for implementing and integrating BSA compliance
programs within different segments of the financial services industry. In FY 2006, FinCEN
issued the following proposed and final rules:

   •	 Requiring financial institutions to implement appropriate, specific, and, where necessary,
      enhanced due diligence policies, procedures, and controls regarding correspondent
      accounts established or maintained for certain foreign financial institutions and
      appropriate, specific due diligence policies, procedures, and controls and, where
      necessary, enhanced scrutiny regarding private banking accounts established or
      maintained for non-U.S. persons, in accordance with Section 312 of the USA PATRIOT
      Act;
   •	 Requiring mutual funds to report suspicious activity;
   •	 Requiring certain insurance companies to establish anti-money laundering programs and
      report suspicious activity; and
   •	 Proposing and imposing special measures against foreign financial institutions
      determined to be of primary money laundering concern, in accordance with Section 311
      of the USA PATRIOT Act.

FinCEN enhanced its outreach program by increasing the amount of written and oral guidance
provided to regulated industries concerning BSA compliance.

By the close of FY 2006, FinCEN had executed memoranda of understanding (MOU)
agreements governing the exchange of information with 48 federal and state regulatory agencies,
surpassing its projected target of 45. These agreements provide a solid foundation upon which
FinCEN may improve its ability to monitor industry compliance by providing vital data on
various industry segments. FinCEN will be in a position to extend the reach of its compliance
efforts even further as it completes MOU with additional agencies and increases the resources
available to make effective use of the data.

FinCEN works closely with its regulatory partners to take enforcement action against institutions
that systemically and egregiously violate the provisions of the BSA, including through
imposition of civil money penalties in appropriate matters. Timely enforcement action
communicates urgency to financial institutions, and is paramount to deterring non-compliance.
In FY 2006, FinCEN met its target measure of 1.0 years average time to process cases. The
year-to-date actual result of 1.0 years reflects effective use of resources.


                                             12

FinCEN continued to support anti-money laundering policy initiatives and investigations at the
federal and state level by producing advanced BSA data analyses tailored to law enforcement
and other partner agencies’ needs. Examples of the analytical products that proved valuable to
FinCEN’s customers include:

   •	 Three assessments, using the analysis of all BSA reports, identifying potential money
      laundering hotspots and significant changes in financial activity. The report helped
      federal and state authorities appropriately allocate drug and cash interdiction resources
      along the southwest border. The recipients of these reports were the Texas Department
      of Public Safety, the Arizona Attorney General’s office, the El Paso Intelligence Center,
      the Office of National Drug Control Policy and the National Drug Intelligence Center.

   •	 Assessment of potential money laundering vulnerabilities associated with limited liability
      companies (LLCs), particularly issues relating to the formation and operation of such
      business entities. This assessment formed the basis for FinCEN recommendations to
      consider increased regulation of agents and nominee incorporation services. This is
      expected to contribute to greater coordination among federal agencies investigating abuse
      of LLCs.

FinCEN supports law enforcement and its regulatory industry partners by facilitating information
sharing and providing analyses of BSA data. In FY 2006, a survey of FinCEN’s customers
found that 69 percent rated FinCEN’s analytic products as valuable, which did not meet
FinCEN’s 75 percent target. FinCEN’s original target of 75 percent respondents rating their
analytic product as valuable was established in FY 2005, and was based on one year of data.
FinCEN is currently revising this measure through the FY 2006 Program Assessment Rating
Tool (PART) process.

FinCEN, as the financial intelligence unit for the United States plays a leadership role in Egmont
Group, a cooperative network of 101 FIUs world wide. In FY 2006, FinCEN supported
cooperative efforts to combat money-laundering, terrorist financing, and other financial crimes
by:

   •	 Enhancing reciprocal international sharing of financial intelligence information;
   •	 Providing training to personnel from foreign FIUs;
   •	 Facilitating efficient and secure communication among FIUs through the Egmont Secure
      Web system; and
   •	 Promoting the establishment or strengthening of FIUs, and assisting in the enhancement
      of anti-money laundering and counter-terrorist financing programs within existing FIUs.

FinCEN led international efforts by hosting a meeting to counter terrorist financing activities in
the tri-border area of Argentina, Brazil and Paraguay. The FIUs from these three countries and
the United States., known as the 3 + 1 Group, compared data, examined common trends and
developed strategies to address the situation.




                                              13

FinCEN also provides authorized law enforcement, regulatory and intelligence agencies direct
access to BSA data. Several of FinCEN’s ongoing efforts will continue to improve its systems
for collecting and disseminating this information. FinCEN, in partnership with the IRS, provided
its partners access to BSA data though the WebCBRS system; a new, easier-to-use, web-based
interface through which authorized users can access BSA data. FinCEN also conducted a
baseline survey of the users of the BSA Direct E-Filing system to determine the overall
satisfaction level and to identify where improvements are needed. The FY 2006 results indicate
that 92 percent of respondents are satisfied with the BSA Direct E-Filing system. Other
accomplishments related to collection and sharing of BSA Data are:

   •	 Executed memoranda of understanding with 34 law enforcement and intelligence 

      agencies for access to the BSA Data; 

   •	 Modernized the Secure Outreach access system, 314(a) system, and 90% of the Egmont
      Secure Web System upgrade;
   •	 Increased the percentage of BSA reports filed electronically by providing outreach and
      technical assistance to the largest filers;
   •	 Established a monitoring program to improved the quality of SAR data, by identifying
      the critical fields that are most often left blank; and
   •	 Conducted a feasibility study regarding a cross-border wire transfer system, as mandated
      by the Intelligence Reform and Terrorism Prevention Act of 2004. This system would
      help to eliminate an important gap in the financial transactional data available to law
      enforcement and intelligence agencies.

Future Perspective

Going forward, FinCEN will continue to partner with law enforcement and regulatory agencies,
counterpart FIUs, and financial institutions, which are the first line of defense in securing the
U.S. financial system. To further enhance its administration of the BSA and achieve its goal of
safeguarding the financial system, FinCEN will:

   •	 Increase global capacity in anti-money laundering/counter-terrorist financing efforts by
      continuing bilateral and multilateral engagements with our international partners;
   •	 Improve outreach to state governments and financial industries newly covered by BSA
      regulations;
   •	 Strengthen oversight of BSA compliance examinations;
   •	 Continue to adopt and revise anti-money laundering regulations;
   •	 Continue major enforcement actions against financial institutions demonstrating systemic
      BSA non-compliance;
   •	 Improve coordination with partner law enforcement and regulatory agencies to identify
      and educate unregistered money services businesses;
   •	 Use advanced analytical tools to improve geographic and industry threat assessments;
   •	 Continue facilitating efficient and secure communication among FIUs through the 

      Egmont Secure Web system; 

   •	 Improve outreach to U.S. law enforcement and regulatory agencies about the benefits of
      collaborating with the Egmont Group of FIUs;



                                              14

   •	 Upgrade information technology to better retrieve and share BSA data with a growing
      user population;
   •	 Use BSA data analysis to identify regulatory issues within the financial services industry;
   •	 Evaluate lowering the current $3,000 recordkeeping and travel rule thresholds for 

      transmittals of funds:

   •	 Collaborate with the Electronic Payments Association regarding automated clearinghouse
      wire transfer information;
   •	 Collaborate with law enforcement, the federal banking agencies, and industry to address
      potential abuse of cover payments; and
   •	 Evaluate the need to propose regulatory action regarding information about cross-border
      electronic wire transfers.

Financial Statements

Highlights of FinCEN’s FY 2006 financial performance appear below. FinCEN is financed
annually through appropriations authorized by Congress. The FY 2006 enacted budget is $74
million and includes an across-the-board rescission of 1%. Total assets were $55 and $50
million and total liabilities were $20 and $14 million at the end of FYs 2006 and 2005,
respectively.

Assets: FinCEN’s total assets as of September 30, 2006 and 2005, were $55 and $50 million,
respectively, of which approximately 59% consists of the fund balance with the Treasury in 2006
and 63% in 2005. While total assets increased by $5 million, we must note that the BSA Direct
Data Retrieval and Sharing Component Project was cancelled in July 2006. The cancellation of
this project resulted in a write off of $5 million with a corresponding decrease to FinCEN’s
capitalized software. This amount includes both hardware and software and the associated labor.
There was an increase in accounts receivable of $2.5 million due to 2 large civil monetary
penalties that were assessed in 2006.

Liabilities: Total liabilities were $20 and $14 million, respectively at September 30, 2006 and
2005. Intra-governmental liabilities totaled $13 million. The increase in total liabilities in FY
2006 over FY 2005 was approximately $6 million or 42% and is attributable to accruing $3.6
million in rent for FY 2006 as GSA has not billed FinCEN for any rent for FY 2006.

Net Cost of Operations: The net cost of FinCEN operations totaled $101 million for the year
ended September 30, 2006 and $90 million for the year ended September 30, 2005, an increase
of 12%. This increase is due primarily to an increase in technology investments for information
sharing activities. The additional expense associated with the write off of $5 million for items
that were previously capitalized for the BSA Direct R&S Component project also contributed to
the increase. All of FinCEN’s costs are reported under the Department of the Treasury’s
Strategic Goal 3: Preserve the Integrity of Financial Systems. FinCEN discloses its net cost by
its own Strategic Goals on the face of the financial statements. The majority of FinCEN’s costs
($51 million or 50%) relate to FinCEN’s goal of facilitating compliance, data management and
information sharing through e-Government.




                                              15

Custodial Revenue: Total net revenue collected by FinCEN on behalf of the federal
government consists mainly of civil monetary penalties. These penalties are assessed against
businesses or individual who do not comply with the reporting and disclosure requirements of
the Bank Secrecy Act. In fiscal year 2006 FinCEN had 2 large civil monetary penalties for
approximately $2.5 million. In fiscal year 2005 there were $10 million in civil monetary
penalties assessed.

Systems and Internal Controls

FinCEN’s investment review board meets routinely to monitor ongoing IT projects and review
proposed capital investments. Financial management systems are in compliance with Federal
financial systems standards, Federal Manager’s Financial Integrity Act (FMFIA) Section 4 and
Federal Financial Management Improvement Act (FFMIA). FinCEN relies on the Bureau of
Public Debt (BPD) Administrative Resource Center (ARC) for administrative and accounting
services, and uses their systems.

FinCEN completed an internal control review of its Blanket Purchase Agreements in February
2006. While the review identified areas that could be improved, overall there are adequate
safeguards in place around this process. FinCEN also completed a review of its Travel Card
Program in April 2006. While FinCEN identified that additional guidance is needed on
appropriate travel card use, overall the internal controls over this program are adequate to
safeguard against fraud, waste and abuse.

BPD performed a Purchase Card Review for FinCEN in July 2006. BPD found several areas in
which the purchase card program could be improved, but that overall FinCEN has strong
safeguards against waste, fraud and abuse.

Improper Payment Improvement Act (IPIA) Reporting

Background
The Improper Payments Information Act of 2002 (IPIA) requires agencies to review their
programs and activities to identify those that are susceptible to significant erroneous payments.
“Significant” means that an estimated error rate and a dollar amount exceed the threshold of
2.5% and $10 million of total program funding.

Risk Assessment Methodology
As a bureau of the Department of the Treasury, FinCEN follows the methodology and guidance
prescribed by the Department. Each year, a comprehensive inventory of the funding sources for
all programs and activities is developed. If program or activity funding is at least $10 million,
Risk Assessments are required at the payment type level (e.g., payroll, contracts, vendors, travel,
etc.). For those payment types resulting in high risk assessments that comprise at least 2.5% and
$10 million of a total funding source, (1) statistical sampling must be performed to determine the
actual improper payment rate, and (2) if erroneous payments exceed $10 million, a Corrective
Action Plan to reduce erroneous payments must be developed and submitted to the Office of
Management and Budget for approval.




                                              16

Results for FY 2006

All of FinCEN’s programs and activities resulted in low risk susceptibility for improper
payments.

Other Information/Issues

Six audits or reviews, two by the Treasury’s Office of the Inspector General (OIG) and three by
the Government Accountability Office (GAO) identified opportunities for improvement. First,
the OIG audit of FinCEN’s analysis of BSA data found that the bureau is performing more
complex analysis in line with USA PATRIOT Act requirements but needs to better plan and
measure the effort, that the FinCEN database needs to be either significantly enhanced or
replaced, and that FinCEN needs to develop a methodology to monitor and detect potential
inappropriate use of databases. Next, the OIG’s audit of FinCEN's 2005 Balance Sheet Audit
resulted in an unqualified opinion but reported a material weakness in the accounts payable
accrual and recording of internally developed software. FinCEN addressed the following
recommendation from that report: that FinCEN’s management develop procedures that would
allow recording of internal use software capitalization as well as accounts payable and accrued
liabilities as transactions occur and review these transactions on at least a monthly basis.

GAO reviewed FinCEN's BSA Direct Retrieval & Sharing Project and similar to FinCEN’s own
findings, found that FinCEN did not always apply effective investment management processes to
oversee the project. The GAO recommended that FinCEN develop a plan for improving the
agency’s capabilities for overseeing the BSA Direct project, monitor progress against the plan,
and take appropriate actions to address deviations. In an audit regarding Treasury's roles and
responsibilities relating to selected provisions of the USA PATRIOT Act, GAO found that
FinCEN had taken various actions to maximize its performance as a global partner in
international financial crime, such as modernizing the Egmont Secure Web, and soliciting
feedback from customers. The GAO recommended that FinCEN take appropriate steps in
developing future customer surveys to help ensure a higher response rate from foreign
customers. The last GAO audit focused on the framework for BSA oversight. Although GAO
recognized the efforts of FinCEN and the federal banking agencies in developing the interagency
BSA/AML Examination Manual, they also identified opportunities to further strengthen their
compliance framework. Specifically, GAO recommended that FinCEN and the federal banking
agencies continue to meet periodically to determine if additional guidance is needed by regulated
industries and to determine the feasibility of a uniform classification system for BSA
noncompliance.

Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results
of operations of FinCEN. While the statements have been prepared from the books and records
of FinCEN in accordance with GAAP for Federal entities and the formats prescribed by OMB,
the statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.




                                              17

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.



Summary of Performance Measures


Performance Measures                                                                  FY 2005   FY 2006   FY 2006
                                                                                       Actual    Target    Actual
Number of domestic and overseas outreach events in which FinCEN participated as a       73         65       148
speaker/panelist
Average time to process enforcement matters (years)                                     1.3       1.0       1.0
Number of federal and state regulatory agencies with which FinCEN has concluded         41        45        48
memoranda of understanding/information sharing agreements
Percentage of customers finding FinCEN’s analytic support valuable                     73%       75%       69%
Percentage of complex analytic work completed by FinCEN analysts                       10%       25%       30%
Number of collaborative analysis projects with foreign financial intelligence units      2         5         3
Percentage of countries/jurisdictions connected to the Egmont Secure Web               99%       98%       97%
Number of countries admitted to Egmont                                                  101       N/A       101
Number of users directly accessing BSA data through FinCEN’s web based system.         3,344     4,000     4,683
Customer satisfaction with BSA Direct E- Filing Component                              New       New       92%
Share of BSA filings submitted electronically.                                         29%       60%       48%
Cost per BSA Form E-Filed                                                               0.32      0.19      0.22




                                                          18

                       United States Department of the Treasury
                        Financial Crimes Enforcement Network
                                    Balance Sheets

                                                                        As of September 30
                                                                 2006                         2005

ASSETS (Note 2)
Intragovernmental:
    Fund balance with Treasury (Note 3)                       $32,611,997               $31,933,229
    Accounts receivable (Note 4)                                   55,680                    42,918
    Other (Note 6)                                                488,615                   461,082
Total intragovernmental                                        33,156,292                32,437,229

   Accounts receivable, net (Notes 2 and 4)                     2,517,053                     6,114
   Property and equipment, net (Note 5)                        19,793,852                17,899,022
   Other (Note 6)                                                       -                     3,822
Total assets                                                  $55,467,197               $50,346,187

LIABILITIES (Note 7)
Intragovernmental:
    Accounts payable                                            7,151,258                    2,540,641
    Other (Note 8)                                              5,636,939                    3,465,809
Total intragovernmental                                        12,788,197                    6,006,450

   Accounts payable                                             3,764,483                    4,662,506
   Other (Note 8)                                               3,349,330                    3,356,494
Total liabilities                                              19,902,010                   14,025,450

   Commitments and contingencies (Notes 9 and 10)

NET POSITION
   Unexpended appropriations – (Note 1)                        20,879,843                23,917,882
   Cumulative results of operations – (Note 1)                 14,685,344                12,402,855
Total net position                                             35,565,187                36,320,737
Total liabilities and net position                            $55,467,197               $50,346,187




               The accompanying notes are an integral part of these financial statements.
                                                  19
                         United States Department of the Treasury
                          Financial Crimes Enforcement Network
                                  Statements of Net Cost

                                                           For the Years Ended September 30
                                                                                  (Unaudited)
PROGRAM COSTS (Note 11)                                     2006                     2005
Protect the financial system:
   Gross costs                                            $24,866,917                  $26,569,147
   Less: earned revenue                                     (297,424)                     (350,648)
Net program costs                                          24,569,493                   26,218,499

Combat terrorism, money laundering, and other
financial crime:
    Gross costs                                            20,859,439                      22,904,437
    Less: earned revenue                                     (249,492)                       (302,283)
Net program costs                                          20,609,947                      22,602,154

Intensify international anti-money laundering
collaboration:
    Gross costs                                             4,521,257                       4,580,888
    Less: earned revenue                                      (54,077)                        (60,457)
Net program costs                                           4,467,180                       4,520,431

Facilitate compliance, data management, and
information sharing through e-Government:
    Gross costs (Note 5)                                   52,508,242                      37,563,277
    Less: earned revenue                                     (628,032)                       (495,743)
Net program costs                                          51,880,210                      37,067,534

Net cost of operations                                  $101,526,830                   $90,408,618




              The accompanying notes are an integral part of these financial statements.
                                                 20
                       United States Department of the Treasury
                        Financial Crimes Enforcement Network
                         Statements of Changes in Net Position


                                                       For the Years Ended September 30
                                                            2006               2005
                                                                           (Unaudited)

Cumulative results of operations:
  Beginning Balances                                       $12,402,855              $4,559,808

Budgetary financing sources:
  Appropriations used                                       75,362,696              67,642,292

Other financing sources (non-exchange):
  Transfers in without reimbursement                          2,300,000              2,000,000
   Imputed financing from costs absorbed by
       others (Note 15)                                     26,146,623              28,609,373
Total financing sources                                    103,809,319              98,251,665

Net cost of operations (Note 11)                         (101,526,830)            (90,408,618)
Net change                                                   2,282,489               7,843,047

Cumulative results of operations                           $14,685,344            $12,402,855

Unexpended appropriations:
  Beginning balance                                        $23,917,882            $20,200,472

Budgetary financing sources:
  Appropriations received                                    73,630,000             72,502,000
  Other adjustments                                         (1,305,343)            (1,142,298)
  Appropriations used                                      (75,362,696)           (67,642,292)
Total budgetary financing sources                           (3,038,039)              3,717,410

Total unexpended appropriations                             20,879,843              23,917,882

Net position                                               $35,565,187            $36,320,737




               The accompanying notes are an integral part of these financial statements.
                                                  21
                       United States Department of the Treasury
                        Financial Crimes Enforcement Network
                          Statements of Budgetary Resources

                                                               For the Years Ended September 30
                                                                                      (Unaudited)
                                                                 2006                    2005
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1               $8,991,088                    $12,434,003
Recoveries of prior year unpaid obligations (Note 12)          2,800,592                      1,361,449
Budget authority:
   Appropriations                                             73,630,000                     72,502,000
   Spending authority from offsetting collections:
       Earned
          Collected                                             3,564,095                     3,170,101
          Change in receivables from Federal sources               12,761                        39,030
       Change in unfilled customer orders
          Without advance from Federal sources                    (12,081)                   (2,014,213)
   Subtotal                                                   77,194,775                     73,696,918
Permanently not available                                     (1,305,343)                    (1,142,298)
Total budgetary resources                                    $87,681,112                    $86,350,072

STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 12):
   Direct                                                    $70,936,071                    $76,156,077
   Reimbursable                                                3,574,531                      1,202,907
   Subtotal                                                   74,510,602                     77,358,984
Unobligated balance:
   Apportioned                                                10,079,577                      7,536,577
Unobligated balance not available                              3,090,933                      1,454,511
Total status of budgetary resources                          $87,681,112                    $86,350,072


                                                                             (Continued)




               The accompanying notes are an integral part of these financial statements.
                                                  22
                        United States Department of the Treasury
                         Financial Crimes Enforcement Network
                           Statements of Budgetary Resources

                                                               For the Years Ended September 30
                                                                                      (Unaudited)
                                                                 2006                    2005
CHANGE IN OBLIGATED BALANCE
Obligated balance, net:
   Unpaid obligations brought forward, October 1             $23,066,399                    $12,654,371
   Less: Uncollected customer payments from Federal
       sources, brought forward, October 1                       (124,259)                   (2,099,441)
Total unpaid obligated balance, net                            22,942,140                    10,554,930
Obligations incurred, net (Note 12)                           (74,510,602)                  (77,358,984)
Less: Gross outlays                                           (75,209,984)                  (65,585,506)
Less: Recoveries of prior year unpaid obligations, actual      (2,800,592)                   (1,361,449)
Change in uncollected customer payments from Federal
   sources                                                           (680)                    1,975,183
Obligated balance, net, end of period:
   Unpaid obligations                                         19,566,426                     23,066,399
   Less: Uncollected customer payments from Federal
       sources                                                  (124,939)                      (124,259)
Total, unpaid obligated balance, net, end of period          $19,441,487                    $22,942,140

NET OUTLAYS
   Gross outlays                                             $75,209,984                    $65,585,506
   Less: Offsetting collections                               (3,564,095)                    (3,170,101)
   Less: Distributed offsetting receipts                          (2,338)                         -
Net outlays                                                  $71,643,551                    $62,415,405




               The accompanying notes are an integral part of these financial statements.
                                                    23
                         United States Department of the Treasury 

                          Financial Crimes Enforcement Network 

                                 Statements of Financing 


                                                                   For the Years Ended September 30
                                                                                        (Unaudited/
                                                                      2006               Re-stated)
                                                                                            2005
Resources used to finance activities:
Budgetary resources obligated:
   Obligations incurred                                            $74,510,602          $77,358,984
   Less: Spending authority from offsetting collections and
       recoveries                                                   (6,365,367)             (2,556,367)
   Obligations net of offsetting collections and recoveries         68,145,235              74,802,617
   Less: Offsetting receipts                                            (2,338)                      -
   Net obligations                                                  68,142,897              74,802,617
Other resources:
   Transfers in without reimbursement                                2,300,000               2,000,000
   Imputed financing from costs absorbed by others                  26,146,623              28,609,373
   Net other resources used to finance activities                   28,446,623              30,609,373

Total resources used to finance activities                          96,589,520          105,411,990

Resources used to finance items not part of the net cost of
 operations:
Change in budgetary resources obligated for goods, services
   and benefits ordered but not yet provided                        (7,174,952)              4,682,809
Resources that fund expenses recognized in prior periods               374,634                   9,074
Budgetary offsetting collections and receipts that do not affect
   net cost of operations
       Other                                                       (2,302,338)              (2,000,000)
Resources that finance the acquisition of assets                     9,435,629               12,989,755
Other resources or adjustments to net obligated resources that
   do not affect net cost of operations                              2,300,000               5,455,122
Total resources used to finance items not part of the net
   cost of operations                                                2,632,973              21,136,760

Total resources used to finance the net cost of operations         $93,956,547          $84,275,230


                                                                              (Continued)




                                                              24
                         United States Department of the Treasury 

                          Financial Crimes Enforcement Network 

                                 Statements of Financing


                                                                For the Years Ended September 30
                                                                                     (Unaudited/
                                                                   2006               Re-stated)
                                                                                         2005



Components of the net cost of operations that will not
   require or generate resources in the current period:
Components requiring or generating resources in future
   periods: (Note 13)
       Increase in annual leave liability                           $40,103                   $304,881
       Other                                                            320                  3,252,726
Total components of net cost of operations that will require
  or generate resources in future periods                            40,423                  3,557,607
Components not requiring or generating resources:
   Depreciation and amortization                                  2,480,749                  2,286,613
   Revaluation of assets or liabilities                           5,060,050                    295,282
   Other                                                            (10,939)                    (6,114)
Total components of net cost of operations that will not
   require or generate resources                                  7,529,860                  2,575,781

Total components of net cost of operations that will not
   require or generate resources in the current period            7,570,283                  6,133,388

Net cost of operations                                         $101,526,830                $90,408,618




              The accompanying notes are an integral part of these financial statements.
                                                 25
                        United States Department of the Treasury 

                         Financial Crimes Enforcement Network 

                            Statements of Custodial Activity


                                                                For the Years Ended September 30
                                                                                     (Unaudited)
                                                                   2006                  2005
Revenue activity (Note 14):
   Sources of cash collections:
       Civil monetary penalties                                   $1,437,338                $10,000,000
   Total cash collections                                          1,437,338                 10,000,000
   Accrual adjustments                                             2,500,000                    (45,966)
Total custodial revenue                                            3,937,338                  9,954,034

Disposition of collections:
   Transferred to others:
       Department of the Treasury                                 (1,437,338)               (10,000,000)
       (Increase)/decrease in amounts yet to be transferred       (2,500,000)                    45,966
Net custodial activity                                                    $0                         $0




               The accompanying notes are an integral part of these financial statements.
                                                   26
                     United States Department of the Treasury
                      Financial Crimes Enforcement Network
                         Notes to the Financial Statements
                 For the Years Ended September 30, 2006 and 2005



NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Reporting Entity
The Financial Crimes Enforcement Network (FinCEN) was formally established by the Department
of the Treasury (Treasury), Order 105-08, on April 25, 1990 and upgraded to bureau status October
26, 2001 in Public Law 107-56. The mission of FinCEN is to safeguard the financial system from
the abuses of financial crime, including terrorist financing, money laundering, and other illicit
activity. This is accomplished primarily through the administration of the Bank Secrecy Act;
supporting law enforcement, intelligence, and regulatory agencies through sharing and analysis of
financial intelligence; building global cooperation with our counterpart financial intelligence units;
and networking people, ideas, and information. To achieve our strategic plan, we have established
the following Strategic Goals: Protect the financial system through effective administration of the
Bank Secrecy Act; Combat terrorism, money laundering and other financial crime through analysis
of the Bank Secrecy Act data and other relevant information; Intensify international anti-money
laundering collaboration through the global network of Financial Intelligence Units; and Facilitate
regulatory compliance, data management and information sharing through electronic government.

Basis of Accounting and Presentation
The financial statements have been prepared from FinCEN’s accounting records in conformity with
accounting principles generally accepted in the United States of America. Accounting principles
generally accepted for Federal entities are the standards prescribed by the Federal Accounting
Standards Advisory Board (FASAB). FASAB is recognized by the American Institute of Certified
Public Accountants as the official accounting standards-setting body of the United States
Government.

These financial statements are provided to meet the requirements of the Government Management
Reform Act of 1994. The financial statements consist of a balance sheet, and the statements of net
costs, changes in net position, budgetary resources, financing and custodial activity. The financial
statements and the related notes are presented on a comparative basis providing information for
fiscal years 2006 and 2005.

FinCEN’s financial statements with respect to the balance sheet, the statement of net cost, and the
statement of changes in net position are reported using the accrual basis of accounting. Under the
accrual method, revenues are recognized when earned and expenses are recognized when a liability
is incurred without regard to receipt or payment of cash. FinCEN’s statement of budgetary resources
is reported using the budgetary basis of accounting. Budgetary accounting facilitates compliance
with legal constraints and controls over the use of federal funds. It generally differs from the accrual




                                                  27
basis of accounting in that obligations are recognized when new orders are placed, contracts
awarded, and services received, that will require payments during the same or future periods.
FinCEN’s statement of financing reconciles differences between the budgetary and accrual bases of
accounting. FinCEN’s non-entity revenues are reported on the statement of custodial activity using a
modified accrual basis of accounting. With this method, revenue from cash collections are reported
separately from receivable accruals, and cash disbursements are reported separately from payable
accruals.

Intragovernmental assets and liabilities result from activity with other Federal agencies. All other
assets and liabilities result from activity with parties outside the Federal government, such as
domestic and foreign persons, organizations, or governments. Intragovernmental earned revenues are
collections or accruals of revenue from other Federal agencies, and intragovernmental costs are
payments or accruals to other Federal agencies.

While these financial statements have been prepared from the books and records of FinCEN, these
financial statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

These financial statements should be read with the realization that they are for a component of a
sovereign entity, that liabilities not covered by budgetary resources cannot be liquidated without the
enactment of an appropriation, and that the payment of all liabilities other than for contracts can be
abrogated by the sovereign entity.

Fund Balance with Treasury
FinCEN does not maintain cash in commercial bank accounts. The Treasury processes cash receipts
and disbursements. Fund balance with Treasury is composed of appropriated and trust funds that are
available to pay current liabilities and finance authorized purchase commitments.

Accounts Receivable
Accounts receivable represent amounts owed to FinCEN by other Federal agencies and the public.
Intragovernmental accounts receivable represent amounts due from other Federal agencies under
contractual agreements or other arrangements for services or activities performed by FinCEN. These
receivables are expected to be fully collected.

Public accounts receivable consist of administrative receivables from employees or suppliers and the
levy of civil monetary penalties from non-Federal sources resulting from FinCEN’s regulatory
responsibilities. Public accounts receivable are presented net of an allowance for doubtful accounts,
which is determined by considering the debtor’s current ability to pay, the debtor’s payment record
and willingness to pay, and an analysis of aged receivable activity.

Property and Equipment
Property and equipment is recorded at cost and is depreciated using the straight line method over the
estimated useful lives of the assets. FinCEN capitalizes property and equipment with an acquisition
value of $25,000 or greater, and a useful life of two years or greater. FinCEN also capitalizes bulk
acquisitions of like-kind property and equipment items that are individually valued under the




                                                 28
capitalization threshold but are, in the aggregate, significant to FinCEN’s financial position or
results of operations.

Internal-use software includes purchased commercial off-the-shelf software (COTS), contractor
developed software, and software that was internally developed by agency employees. For COTS
software, the capitalized costs include the amount paid to the vendor for the software, for contractor
developed software it includes the amount paid to a contractor to design, program, install and
implement the software. Capitalized costs for internally developed software include the full cost
(direct and indirect) incurred during the software development phase.

Major alterations and renovations that increase an asset’s useful life are capitalized, while normal
maintenance and repair costs are charged to expense as incurred. Upon legal transfer, donation, or
approval for disposal of property and equipment, the value of the related asset and corresponding
accumulated depreciation is removed.

Leasehold improvements are amortized over the shorter of the term of the remaining portion of the
lease, or the useful life of the improvement. Amortization of capitalized software begins on the date
the software is placed in production (i.e., successfully installed and tested).

Equipment that is to be constructed is recorded as construction-in-progress until completed and is
valued at actual costs. Construction-in-progress assets are not depreciated until completed and
placed in service.

FinCEN does not have any heritage assets or stewardship land. Therefore there is no presentation in
the balance sheet, the footnotes or required supplementary information.

Liabilities
Liabilities represent the probable and measurable future outflow or other sacrifice of resources as a
result of past transactions or events. Since FinCEN is a component of the United States government,
a sovereign entity, FinCEN’s liabilities cannot be liquidated without legislation that provides
resources or an appropriation. Liabilities covered by budgetary resources are those liabilities for
which Congress has appropriated funds or funding is otherwise available to pay amounts due.
Liabilities not covered by budgetary or other resources represent amounts owed in excess of
available, congressionally appropriated funds or other amounts, and there is no certainty that the
appropriations will be enacted. The United States government, acting in its sovereign capacity, can
abrogate liabilities of FinCEN arising from other than contracts.

Annual, Sick and Other Leave
Annual leave is accrued as a liability when earned, and the accrual is reduced as leave is taken. The
balance in the accrued annual leave account reflects current pay rates and leave balances, and is
reported within other liabilities in the accompanying Balance Sheet. Sick leave and other types of
non-vested leave are charged to operating costs as the leave is taken.

Workers’ Compensation
A liability is recorded for actual and estimated future payments to be made for workers’




                                                 29
compensation pursuant to the Federal Employees’ Compensation Act (FECA). The actual liability is
presented as a component of intragovernmental other liabilities, and the actuarial liability is
presented within other liabilities in the accompanying Balance Sheet.

FECA provides income and medical cost protection to covered Federal civilian employees injured
on the job, employees who have incurred work-related occupational diseases and beneficiaries of
employees whose death is attributable to a job-related injury or occupational disease. Claims
incurred for benefits to employees are administered by the U.S. Department of Labor (DOL) which
initially pays valid claims and subsequently seeks reimbursement from the Federal agencies
employing the claimants. Reimbursement to DOL occurs approximately two years subsequent to the
actual disbursement to the claimant. Budgetary resources for this intragovernmental liability are
made available to FinCEN as part of its annual appropriation from Congress in the year in which the
reimbursement takes place.

Future workers’ compensation estimates are generated by DOL from an application of actuarial
procedures developed to estimate the liability for FECA benefits. The actuarial liability for future
workers’ compensation benefits includes the expected liability for death, disability, medical and
miscellaneous costs for approved compensation cases, plus a component for incurred but not
reported claims. The liability is determined using a method that utilizes historical benefit payment
patterns related to a specific incurred period to predict the ultimate payments related to that period.
Based on information provided by the DOL, Treasury allocates the overall Treasury liability to
Treasury components based on prior claims payment experience. The accrued liability is not covered
by budgetary resources and will require future funding.

Unamortized Rent Abatement
The terms of the operating lease between FinCEN and the General Services Administration (GSA)
for the Vienna, VA facility contains a rent abatement period. During the rent abatement period no
rent is payable to GSA. Rent payments commenced in fiscal year 2006 , however, FinCEN is
recognizing rent expense on a straight-line basis over the lease term. Accordingly, an unamortized
rent abatement liability is included in other intragovernmental liabilities in the accompanying
Balance Sheet. This liability is being amortized on a straight-line basis over the lease term.

Pension Costs and Other Retirement Benefits
Most FinCEN employees hired prior to January 1, 1984 participate in the Civil Service Retirement
System (CSRS). As of September 30, 2006 and 2005, FinCEN contributed 7 percent of base pay for
regular employees.

Employees hired after December 31, 1983 are automatically covered by the Federal Employee’s
Retirement System (FERS) and Social Security. As of September 30, 2006 and 2005, FinCEN
contributed 11.2 percent of base pay for the FERS basic benefit. A primary feature of FERS is that it
offers a savings plan to which FinCEN automatically contributes 1 percent of base pay and matches
employee contributions up to an additional 4 percent of base pay. FinCEN also contributes the
employer’s Social Security matching share for FERS participants.

FinCEN is not responsible for administering either CSRS or FERS. Therefore, FinCEN does not




                                                  30
report CSRS or FERS assets, accumulated plan benefits or unfunded liabilities, if any, applicable to
FinCEN employees. Reporting such amounts is the responsibility of OPM.

Similar to CSRS and FERS, OPM, rather than FinCEN, reports the liability for future payments to
retired employees who participate in the Federal Employees Health Benefits Program (FEHBP) and
the Federal Employees Group Life Insurance Program (FEGLI). FinCEN does not contribute funds
for the cost to provide health benefits and life insurance to its retirees.

The estimated cost of providing CSRS and FERS retirement and FEHBP and FEGLI benefits to
retirees is more than the amounts contributed by FinCEN and its employees. Federal entities are
required to report the full cost of providing retirement benefits to include the cost financed by OPM.
The additional expense representing the difference between the estimated cost and the employer and
employee contributions for these programs is included as an expense and as an imputed financing
source in FinCEN’s financial statements.

Entity Revenues, Financing Sources and Imputed Financing Sources
FinCEN receives the majority of funding needed to support its programs through Congressional
appropriations. Additional funding is obtained through exchange revenues.

Appropriations are recognized as a financing source at the time the expenses are incurred or assets
are purchased. Exchange revenue from reimbursable agreements is recognized when earned (i.e.,
goods have been delivered or services rendered). Reimbursable work between Federal
appropriations is subject to the Economy Act (31 U.S.C. 1535) or other statutes authorizing
reimbursement. Prices for goods and services sold to other Federal agencies are generally limited to
the recovery of actual costs. FinCEN recognizes as an imputed financing source the amount of
pension and post-retirement benefit expense for current employees paid on behalf of FinCEN by the
Office of Personnel Management, as well as amounts paid from the Department of Treasury
Judgment Fund in settlement of claims, legal settlements, or court assessments. When costs that are
identifiable to FinCEN and directly attributable to FinCEN’s operations are paid for by other
agencies, FinCEN recognizes these amounts as imputed costs and financing sources.

Imputed intradepartmental costs represent the un-reimbursed portion of the full costs of goods and
services received by FinCEN from a providing bureau that is part of Treasury. FinCEN identifies
intra-entity costs that meet the criteria for recognition (i.e. materiality, significance to the entity,
directness of the relationship to entity operations, identifiably) that are not fully reimbursed and
recognizes them as operating expenses and an imputed financing source.

Non-Entity Assets, Revenues and Disbursements
Non-entity assets are those held by FinCEN that are not available for use by FinCEN. Non-entity
accounts receivable reported in FinCEN’s Balance Sheet and non-entity revenue reported in
FinCEN’s Statement of Custodial Activity includes civil monetary penalties. Civil monetary
penalties represent amounts assessed on or collected from non-Federal sources for violations of laws
and regulations under FinCEN’s regulatory responsibility.

Non-entity accounts receivable, custodial revenue and disposition of revenue is recognized when




                                                  31
FinCEN is entitled to collect civil monetary penalties on behalf of the Federal government that have
been established as a legally enforceable claim and collection is probable. Proceeds from the civil
monetary penalty assessments are ultimately deposited in the Treasury General Fund based on
established laws and regulations. These funds are not available to fund FinCEN’s operating
activities and accordingly, an offsetting liability due to the Treasury General Fund is recorded for
amounts recognized as non-entity accounts receivable.

Non-entity accounts receivable are presented net of amounts deemed uncollectible. An allowance for
doubtful accounts is established based on an assessment of the debtor’s current ability to pay, the
debtor’s payment record and willingness to pay, and an analysis of aged receivable activity.

Use of Estimates
The preparation of the financial statements in accordance with generally accepted accounting
principles requires management to make estimates and assumptions that affect the reported amounts
of assets and liabilities, the disclosure of contingencies at the date of the financial statements, and
the reported amounts of revenue and expenses during the reporting period. Actual results may differ
from those estimates.

Tax Status
FinCEN, as a Federal agency, is not subject to Federal, state, or local income taxes and, accordingly,
no provision for income taxes has been recorded in the accompanying financial statements.

Reclassification
Certain 2005 balances have been reclassified for comparative purposes of disclosures with 2006
balances, including the adoption of the new format for the Statement of Budgetary Resources as
outlined in OMB Circular A-136.

Restatement
Certain 2005 balances (unaudited) have been restated for consistent disclosures with 2006 balances,
including the transfer in without reimbursement amounts included on the Statement of Financing.

Adoption of SFFAS No. 27
Earmarked Funds within the Department of Treasury appropriations include any funds financed by
specifically identified revenues and other financing sources that are required by statute to be used for
designated activities, benefits or purposes; which remain available over time to finance designated
activities, benefits, or purposes; and which must be accounted for separately from the Treasury’s
general funds. Management has determined that FinCEN receipts do not meet the definition of
earmarked funds as defined by Statement of Federal Financial Accounting Standards No. 27,
“Identifying and Reporting Earmarked Funds.” Accordingly, FinCEN has no earmarked funds as
of September 30, 2006 and 2005.




                                                  32
NOTE 2. NON-ENTITY ASSETS

Non-entity assets as of September 30, 2006 and 2005 consisted of the following:

                                                         2006                         2005
Civil penalties assessed                             $ 3,200,000                  $    700,000
Less allowance for doubtful collection                   (700,000)                    (700,000)
           Total non-entity assets                      2,500,000                            0
Total entity assets                                    52,967,197                   50,346,187
           Total assets                               $55,467,197                 $50,346,187

Non-entity accounts receivable represents civil monetary penalties due from non-Federal sources
for violations of laws or regulations under FinCEN’s regulatory responsibility.

The total non-entity assets are offset on the balance sheet by the custodial liability Due to the
Treasury General Fund. The amount Due to the Treasury General Fund is included in the
intragovernmental other liabilities balance shown in note 8.

NOTE 3. FUND BALANCE WITH TREASURY

Fund Balances:
Fund balance with Treasury as of September 30, 2006 and 2005 consisted of the following
components:

                                                          2006                         2005

Trust funds                                              $156,470                     $134,043
Appropriated funds                                     32,455,527                   31,799,186
Total                                                 $32,611,997                  $31,933,229

Trust funds consist of a violent crime reduction expenditure account that is designated by law as a
trust fund. Receipts in this account are used for law enforcement related information technology
projects.

Appropriated funds consist of amounts appropriated annually by Congress to fund the operations of
FinCEN.




                                                33
Status of Fund Balances:
The status of fund balance with Treasury as of September 30, 2006 and 2005 consisted of the
following:

                                                          2006                         2005
Unobligated balance:
   Available                                          $10,079,577                   $7,536,577
   Unavailable                                          3,090,933                    1,454,511
Obligated balance not yet disbursed                    19,441,487                   22,942,141
Total                                                 $32,611,997                  $31,933,229

The unobligated balance unavailable represents amounts appropriated in prior fiscal years that are
not available to fund new obligations, but may be used to adjust obligations and disbursements that
were recorded before the budgetary authority expired or to meet a bona fide need that arose in the
fiscal year for which the appropriation was made.

The obligated balance not yet disbursed represents amounts designated for payment of goods and
services ordered but not received, or goods and services received but for which payment has not yet
been made.

NOTE 4. ACCOUNTS RECEIVABLE, NET

Components of accounts receivable as of September 30, 2006 and 2005, were as follows:

                                                          2006                         2005
Intragovernmental:
   Accounts receivable                                     $55,680                      $42,918
Public:
   Accounts receivable                                     17,053                         6,114
   Civil penalties assessed                             3,200,000                       700,000
   Less allowance for doubtful collection                (700,000)                     (700,000)
   Public accounts receivable, net                      2,517,053                         6,114
Total accounts receivable, net                         $2,572,733                       $49,032

Intragovernmental accounts receivable arise generally from the provision of goods and services to
other Federal agencies.

Accounts receivable from non-Federal sources consist of administrative receivables from employees
or suppliers and civil monetary penalties which have been billed or accrued and remain uncollected
as of year-end. The collection of civil monetary penalties is a custodial activity performed by
FinCEN and are not considered financing sources (revenues) available to offset the operating
expenses of FinCEN and accordingly, a corresponding liability is recorded on the accompanying
Balance Sheet. An allowance for doubtful accounts of $700,000 has been recognized to offset civil
monetary penalties currently being litigated by the Department of Justice.




                                                34
NOTE 5. PROPERTY AND EQUIPMENT, NET

Property and equipment as of September 30, 2006 and 2005 consisted of the following:
                                                                            2006
                                                Useful
                                                 Life                         Accumulated             Net
                              Depreciation       (In        Acquisition       Depreciation/          Book
                                Method          years)         Cost           Amortization           Value

Furniture, fixtures and
    equipment                      S/L            5-7        $6,397,590        ($3,258,448)        $3,139,142
Construction in
   progress                       N/A            N/A             330,846                 -            330,846
Internal-use software             S/L             5            9,791,668        (5,649,499)         4,142,169
Internal-use software in
    development                   N/A            N/A         12,034,916                    -       12,034,916
Leasehold
    improvements                   S/L            3-5           705,960           (559,181)          146,779
Total                                                       $29,260,980        ($9,467,128)      $19,793,852

                                                                                   2005
                                                Useful
                                                 Life                         Accumulated             Net
                              Depreciation       (In        Acquisition       Depreciation/          Book
                                Method          years)         Cost           Amortization           Value

Furniture, fixtures and
    equipment                      S/L            5-7        $5,214,801        ($3,535,951)        $1,678,850
Construction in
   progress                       N/A            N/A                   -                 -                  -
Internal-use software             S/L             5            8,329,778        (3,897,599)         4,432,179
Internal-use software in
    development                   N/A            N/A         11,734,339                    -       11,734,339
Leasehold
    improvements                   S/L            3-5           601,829           (548,175)           53,654
Total                                                       $25,880,747        ($7,981,725)      $17,899,022

Construction-in-progress represents equipment that has been received but has not yet been
constructed and placed into operation.

Internal-use software in development represents actual (direct) costs and other indirect costs incurred
for various software development projects not yet placed in service. The indirect costs consist of the
applied overhead on FinCEN employee labor associated with the software in development. In fiscal




                                                  35
year 2006, the total amount of internal-use software in development additions was $5,453,626 of
which $64,795 was indirect costs. In fiscal year 2005, the total amount of internal-use software in
development additions was $12,184,331 of which $78,534 was indirect costs. Depreciation and
amortization expense recognized during the year ended September 30, 2006 and 2005 was
$2,480,749 and $2,286,613, respectively.

On July 13, 2006 FinCEN permanently halted the BSA Direct Retrieval and Sharing Component
(BSA Direct R&S) project. FinCEN wrote off $5.0 million related to this project. This amount
includes both hardware and software and the associated labor.

NOTE 6. OTHER ASSETS

Other assets as of September 30, 2006 and 2005 consisted of the following:
                                                       2006                            2005
Intragovernmental:
   Advances and prepayments                            $488,615                       $461,082
Public:
   Advances and prepayments                                     -                        3,822
Total other assets                                     $488,615                       $464,904

Intragovernmental advances and prepayments consist of amounts paid to the Department of the
Treasury Working Capital Fund prior to FinCEN’s receipt of goods and services. All other advances
and prepayments consist of employee travel advances.

NOTE 7. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

Liabilities not covered by budgetary resources represent amounts owed in excess of available
appropriated or other amounts. The liquidation of liabilities not covered by budgetary resources is
dependent on future congressional appropriations. The September 30, 2006 and 2005 liabilities not
covered by budgetary resources consisted of the following:
                                                                       2006                     2005
Intragovernmental:
    Accrued workers’ compensation                                        $1,167                       $847
    Unamortized rent abatement                                        2,880,986                 3,252,726
              Total intragovernmental                                 2,882,153                 3,253,573
Public:
    Accrued annual leave                                              2,199,003                 2,158,900
    Actuarial liability for workers’ compensation                        41,055                     43,949
              Total public                                            2,240,058                 2,202,849
Total liabilities not covered by budgetary resources                  5,122,211                 5,456,422
Total liabilities covered by budgetary resources or
    non-entity assets                                                14,779,799                 8,569,028
              Total liabilities                                     $19,902,010              $14,025,450




                                                36
NOTE 8. OTHER LIABILITIES

Other liabilities as of September 30, 2006 and 2005 consisted of the following:

                                                                         2006
                                                Non-Current             Current       Total
Intragovernmental:
  Due to Treasury General Fund                             $-         $2,500,000    $2,500,000
  Accrued employee benefits                                 -            254,786       254,786
  Accrued workers’ compensation                           320                847         1,167
  Unamortized rent abatement                        2,509,246            371,740     2,880,986
Total intragovernmental                             2,509,566          3,127,373     5,636,939

Public:
  Accrued payroll and employee benefits                     -           1,109,272    1,109,272
  Accrued annual leave                                      -           2,199,003    2,199,003
  Actuarial liability for workers’
    compensation                                      41,055                   -        41,055
Total public                                          41,055           3,308,275     3,349,330
Total other liabilities                           $2,550,621          $6,435,648    $8,986,269


                                                                         2005
                                                Non-Current             Current       Total
Intragovernmental:
  Accrued employee benefits                                $-           $212,236      $212,236
  Accrued workers’ compensation                           847                  -           847
  Unamortized rent abatement                        2,880,986            371,740     3,252,726
Total intragovernmental                             2,881,833            583,976     3,465,809

Public:
  Accrued payroll and employee benefits                     -           1,153,645    1,153,645
  Accrued annual leave                                      -           2,158,900    2,158,900
  Actuarial liability for workers’
    compensation                                      43,949                   -        43,949
Total public                                          43,949           3,312,545     3,356,494
Total other liabilities                           $2,925,782          $3,896,521    $6,822,303




                                               37
NOTE 9. LEASES

FinCEN leases office space from the General Services Administration (GSA) under long-term
occupancy agreements. All of the office space occupied by FinCEN is leased by GSA from
commercial sources. GSA space is assigned to FinCEN based upon current needs. FinCEN is not
committed to continue to pay rent to GSA beyond the period occupied providing proper advance
notice to GSA is made. However, it is expected that FinCEN will continue to occupy and lease
office space from GSA in future years. The lease amount paid to GSA during fiscal years 2006 and
2005 was $4,010,902 and $1,475,313 (unaudited), respectively. The increase from 2005 to 2006 is
due to the rent abatement for which rent was not due for most of fiscal year 2005. All of fiscal year
2006 rental payments for the Vienna office have been accrued as GSA has not billed FinCEN for
rent at that location.

As of September 30, 2006 future lease payments due under GSA operating leases were as follows:

                  2007                                 $ 4,142,811
                  2008                                    4,152,848
                  2009                                    4,163,002
                  2010                                    4,173,275
                  2011                                    4,183,669
                  Thereafter                              4,194,184
                  Total future payments                 $25,009,789

NOTE 10. COMMITMENTS AND CONTINGENCIES

FinCEN is party to various administrative proceedings, legal actions and claims. To the extent
applicable, the financial statements include an estimated accrued liability for those legal actions
where the Legal Counsel considers adverse decisions “probable” and the potential loss can be
estimated. Management has determined that it is not probable that these proceedings and actions
will result in the incurrence of liabilities as of September 30, 2006 and 2005, and accordingly no
liabilities have been accrued in the accompanying financial statements.

There is one legal action pending where adverse decisions are considered to be “reasonably
possible” as of September 30, 2006. Complainant’s attorney’s current estimate of possible loss is
approximately $190,000 plus compensatory damages which are inestimable. There were no legal
actions pending where adverse decisions were considered to be “reasonably possible” as of
September 30, 2005.

Reasonably possible losses are not recognized on the balance sheet.




                                                 38
NOTE 11. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

Intragovernmental costs and exchange revenue for the year ended September 30, 2006 and 2005
consisted of the following:
                                                                             (Unaudited)
                                                       2006                      2005
PROGRAM COSTS
Protect the financial system
    Intragovernmental costs                        $12,568,108                $14,846,798
    Public costs                                     12,298,809                11,722,349
         Total program costs                         24,866,917                26,569,147
    Intragovernmental earned revenue                   (297,424)                 (350,648)
Net program cost                                     24,569,493                26,218,499

Combat terrorism, money laundering, and
other financial crime
   Intragovernmental costs                               10,542,669                   12,798,964
   Public costs                                          10,316,770                   10,105,473
        Total program costs                              20,859,439                   22,904,437
   Intragovernmental earned revenue                        (249,492)                    (302,283)
Net program cost                                         20,609,947                   22,602,154

Intensify international anti-money laundering
collaboration
    Intragovernmental costs                                2,285,110                    2,559,794
    Public costs                                           2,236,147                    2,021,094
         Total program costs                               4,521,257                    4,580,888
    Intragovernmental earned revenue                         (54,077)                     (60,457)
Net program cost                                           4,467,180                    4,520,431


Facilitate compliance, data management, and
information sharing through e-Government
    Intragovernmental costs                              26,538,443                   20,990,302
    Public costs                                         25,969,799                   16,572,975
         Total program costs                             52,508,242                   37,563,277
    Intragovernmental earned revenue                       (628,032)                    (495,743)
Net program cost                                         51,880,210                   37,067,534
Net cost of operations                                 $101,526,830                 $90,408,618

The criteria used for the classification of costs as Intragovernmental and Public costs are that the
intragovernmental costs relate to the source of goods and services purchased by the reporting entity,
and not to the classification of related revenue. For example, “exchange revenue with the public” is
when the buyer of the goods or services is a non-Federal entity. While with “intragovernmental




                                                 39
costs,” the buyer and seller are both Federal entities. If a Federal entity purchases goods or services
from another Federal entity and sells them to the public, the exchange revenue would be classified as
“with the public,” but the related costs would be classified as “intragovernmental.” The purpose of
this classification is to enable the Federal government to provide consolidated financial statements,
and not to match public and intragovernmental revenue with costs that are incurred to produce
public and intragovernmental revenue.

NOTE 12. STATEMENT OF BUDGETARY RESOURCES

Apportionment Categories of Obligations Incurred
Obligations incurred as reported on the Statement of Budgetary Resources for the years ended
September 30, 2006 and 2005 consisted of the following:

                                                                                  (Unaudited)
                                                           2006                      2005
Direct Obligations
    Category B                                         $70,936,071                $76,156,077
Reimbursable Obligations
    Category B                                           3,574,531                  1,202,907
Total                                                  $74,510,602                $77,358,984

Apportionment categories are determined in accordance with the guidance provided in OMB
Circular A-11, Preparation, Submission and Execution of the Budget. Category B represents
resources apportioned for other time periods other than calendar quarters; for activities, projects, or
objectives; or for any combination thereof. FinCEN only has Category B apportionments.

Adjustments to Beginning Balance of Budgetary Resources
Adjustments to budgetary resources available at the beginning of fiscal years 2006 and 2005
consisted of the followin
                                                                          (Unaudited)
                                                     2006                     2005

Recoveries of prior year obligations                    $2,800,592                 $1,361,449
Cancellations of expired accounts                        (569,043)                   (562,282)
Enacted reductions                                        (736,300)                  (580,016)
Total                                                   $1,495,249                  $219,151

Differences Between the Statement of Budgetary Resources and the Budget of the United States
The fiscal year 2008 Budget of the United States Government (also known as the President’s
Budget) with actual numbers for fiscal year 2006, was not published at the time these financial
statements were issued. The President’s Budget is expected to be published in February 2007.
The following chart displays the differences between the fiscal year 2005 Statement of Budgetary
Resources (unaudited) and the actual fiscal year 2005 balances included in the fiscal year 2007
President’s Budget.




                                                  40
                                                              (In millions)
                                      Budgetary        Obligations       Offsetting         Net
                                      Resources         Incurred         Receipts          Outlays
Statement of Budgetary Resources        $72               $77                $3             $62
Obligations in expired accounts not
    included in President’s Budget        -                (1)                -                -

President’s Budget                       $72              $76                 $3             $62

Undelivered Orders at the End of the Period
Undelivered orders as of September 30, 2006 and 2005 were $7,286,626 and $14,497,371
(unaudited), respectively.

NOTE 13. STATEMENT OF FINANCING

The Components Requiring or Generating Resources in Future Periods presented on the Statement
of Financing represents the increase between the beginning and ending balances for the Liabilities
Not Covered by Budgetary Resources presented on the Balance Sheet and detailed in Note 7.

NOTE 14. STATEMENT OF CUSTODIAL ACTIVITY

FinCEN assesses civil monetary penalties related to enforcement of the Bank Secrecy Act as
authorized by 31 U.S.C. 5321(b). FinCEN collects this custodial revenue and distributes the full
amount of penalties collected to the Treasury General Fund. For the years ended September 30,
2006 and 2005 cash collections and distributions to Treasury were $1,437,338 and $10,000,000
(unaudited), respectively. The custodial accrual adjustment totaling $2,500,000 at September 30,
2006 reflects the accounts receivable FinCEN has which is offset by the equal custodial liability of
$2,500,000. The custodial accrual adjustment totaling ($45,966) at September 30, 2005 reflects the
reversal of interest and penalties associated with two delinquent receivables written off in FY 2005
which is offset by the equal custodial liability of $45,996.

NOTE 15. IMPUTED FINANCING SOURCES

FinCEN has imputed financing costs with the Office of Personnel Management as well as the
Internal Revenue Service. Imputed financing sources from the Internal Revenue Service for the
collection and processing of Bank Secrecy Act Data for the years ended September 30, 2006 and
2005 were $24,232,012 and $26,871,384 (unaudited), respectively. A summary of the imputed
financing costs by agency for the years ended September 30, 2006 and 2005 is as follows:
                                                                                (Unaudited)
                                                        2006                        2005

Office of Personnel Management                         $ 1,914,611                    $ 1,737,989
Internal Revenue Service                                 24,232,012                     26,871,384
Total Imputed Financing Sources                         $26,146,623                    $28,609,373




                                                  41
                  United States Department of the Treasury
                   Financial Crimes Enforcement Network
                    Required Supplementary Information
              For the Years Ended September 30, 2006 and 2005

STATEMENT OF BUDGETARY RESOURCES
Budgetary resources disaggregated by major accounts for the years ended September 30,
2006 and 2005 consisted of the following:

                                                                          2006
                                                       Appropriated       Trust
                                                         Funds            Funds          Total
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1         $8,961,558        $29,530      $8,991,088
Recoveries of prior year unpaid obligations              2,789,834         10,758       2,800,592
Budget authority:
  Appropriations                                        73,630,000                -    73,630,000
Spending authority from offsetting collections:
  Earned
    Collected                                            3,521,340         42,755       3,564,095
    Change in receivables from Federal sources              12,761              -          12,761
  Change in unfilled customer orders
    Without advance from Federal sources                    (12,081)            -        (12,081)
  Subtotal                                              77,152,020         42,755      77,194,775
Permanently not available                               (1,305,343)             -      (1,305,343)
Total budgetary resources                              $87,598,069        $83,043     $87,681,112


STATUS OF BUDGETARY RESOURCES
Obligations incurred:
  Direct                                               $70,917,922        $18,149     $70,936,071
  Reimbursable                                           3,574,531                      3,574,531
  Subtotal                                              74,492,453         18,149      74,510,602
Unobligated balance:
  Apportioned                                           10,014,683         64,894      10,079,577
Unobligated balance not available                        3,090,933              -       3,090,933
Total status of budgetary resources                    $87,598,069        $83,043     $87,681,112



                                                                       (Continued)




                                                  42
                                                                             2006
                                                            Appropriated    Trust
                                                              Funds         Funds              Total
CHANGE IN OBLIGATED BALANCES
Obligated balance, net:
  Unpaid obligations brought forward, October 1             $22,961,886     $104,513        $23,066,399
  Less: Uncollected customer payments from Federal
    sources, brought forward, October 1                        (124,259)            -          (124,259)
  Total unpaid obligated balance, net                        22,837,627      104,513         22,942,140
Obligations incurred, net                                   (74,492,453)     (18,149)       (74,510,602)
Less: Gross outlays                                         (75,189,656)     (20,328)       (75,209,984)
Less: Recoveries of prior year unpaid obligations, actual    (2,789,834)     (10,758)        (2,800,592)
Change in uncollected customer payments from Federal
  sources                                                          (680)            -             (680)
Obligated balance, net, end of period
  Unpaid obligations                                         19,474,850       91,576         19,566,426
  Less: Uncollected customer payments from Federal
    sources                                                    (124,939)                -     (124,939)
Total, unpaid obligated balance, net, end of period         $19,349,911      $91,576        $19,441,487

NET OUTLAYS
 Gross outlays                                              $75,189,656      $20,328        $75,209,984
 Less: Offsetting collections                                (3,521,340)     (42,755)        (3,564,095)
 Less: Distributed offsetting receipts                            (2,338)          -              (2,338)
Net outlays                                                 $71,665,978     ($22,427)       $71,643,551




                                                     43
                  United States Department of the Treasury
                   Financial Crimes Enforcement Network
                    Required Supplementary Information
              For the Years Ended September 30, 2006 and 2005
                                                                        2005 (Unaudited)
                                                         Appropriated         Trust
                                                           Funds              Funds           Total
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1          $12,422,651          $11,352      $12,434,003
Recoveries of prior year unpaid obligations                1,343,053           18,396        1,361,449
Budget authority:
  Appropriations                                          72,502,000                -       72,502,000
  Spending authority from offsetting collections:
    Earned
      Collected                                            3,170,101                -        3,170,101
      Change in receivables from Federal sources              39,030                -           39,030
    Change in unfilled customer orders
      Without advance from Federal sources                (2,014,213)               -       (2,014,213)
  Subtotal                                                73,696,918                0       73,696,918
Permanently not available                                 (1,142,298)               -       (1,142,298)
Total budgetary resources                                $86,320,324          $29,748      $86,350,072


STATUS OF BUDGETARY RESOURCES
Obligations incurred:
  Direct                                                 $76,155,859             $218      $76,156,077
  Reimbursable                                             1,202,907                -        1,202,907
  Subtotal                                                77,358,766              218       77,358,984
Unobligated balance:
  Apportioned                                              7,507,047           29,530        7,536,577
Unobligated balance not available                          1,454,511                -        1,454,511
Total status of budgetary resources                      $86,320,324          $29,748      $86,350,072


                                                                          (Continued)




                                                    44
                                                                           2005 (Unaudited)
                                                            Appropriated         Trust
                                                              Funds              Funds           Total
CHANGE IN OBLIGATED BALANCES
Obligated balance, net
  Unpaid obligations brought forward, October 1             $12,495,301         $159,070      $12,654,371
  Less: Uncollected customer payments from Federal
    sources, brought forward, October 1                      (2,099,441)               -       (2,099,441)
Total unpaid obligated balance, net                          10,395,860          159,070       10,554,930
Obligations, incurred, net                                  (77,358,766)            (218)     (77,358,984)
Less: Gross outlays                                         (65,549,127)         (36,379)     (65,585,506)
Less: Recoveries of prior year unpaid obligations, actual    (1,343,053)         (18,396)      (1,361,449)
Change in uncollected customer payments from Federal
  sources                                                     1,975,183                -        1,975,183
Obligated balance, net, end of period
  Unpaid obligations                                         22,961,886          104,513       23,066,399
  Less: Uncollected customer payments from Federal
    sources                                                    (124,259)               -         (124,259)
Total, unpaid obligated balance, net, end of period         $22,837,627         $104,513      $22,942,140

NET OUTLAYS
  Gross outlays                                             $65,549,127          $36,379      $65,585,506
  Offsetting collections                                     (3,170,101)               -       (3,170,101)
Net outlays                                                 $62,379,026          $36,379      $62,415,405




                                                     45
